<html>
<title> - [H.A.S.C. No. 115-14]NUCLEAR DETERRENCE - THE DEFENSE SCIENCE BOARD'S PERSPECTIVE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                         [H.A.S.C. No. 115-14]

      NUCLEAR DETERRENCE--THE DEFENSE SCIENCE BOARD'S PERSPECTIVE

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 9, 2017



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


     
     
     
     
     
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-046                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
     
     
     
     
     
     
     
     
     
     
     
     
     
     
     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona, Vice Chair    JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               SUSAN A. DAVIS, California
DUNCAN HUNTER, California            RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BETO O'ROURKE, Texas
MICHAEL R. TURNER, Ohio              DONALD NORCROSS, New Jersey
MIKE COFFMAN, Colorado               COLLEEN HANABUSA, Hawaii
BRADLEY BYRNE, Alabama               RO KHANNA, California
SAM GRAVES, Missouri
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Larsen, Hon. Rick, a Representative from Washington, Subcommittee 
  on Strategic Forces............................................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

John, Dr. Miriam, Dr. Michael Anastasio, and Dr. William 
  LaPlante, Members, Defense Science Board.......................     4

                                APPENDIX

Prepared Statements:

    John, Dr. Miriam, joint with Dr. Michael Anastasio and Dr. 
      William LaPlante...........................................    28
    Larsen, Hon. Rick............................................    25
    Rogers, Hon. Mike............................................    23

Documents Submitted for the Record:

    Richard L. Garwin letter, January 11, 2016...................    45
    Roy Schwitters statement, January 11, 2016...................    41

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    56
    Mr. Franks...................................................    57
    Mr. Rogers...................................................    51
















      NUCLEAR DETERRENCE--THE DEFENSE SCIENCE BOARD'S PERSPECTIVE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Thursday, March 9, 2017.
    The subcommittee met, pursuant to call, at 3:36 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. The subcommittee will come to 
order. I want welcome to our hearing on ``Nuclear Deterrence--
The Defense Science Board's Perspective.''
    I want to thank all of our witnesses for being here today, 
and for your service to the public. Our witnesses are all 
experts who have spent their careers in fields related to 
nuclear deterrence. They are appearing today in their 
capacities as members of the Defense Science Board [DSB], but 
all have long and distinguished histories in the topic of our 
hearing today.
    We thank you for the hard work it takes to prepare for this 
hearing.
    And our witnesses are Dr. Michael Anastasio, Dr. Miriam 
John, and Dr. William LaPlante.
    Without objection, I will introduce my full statement for 
the record, but I would briefly summarize.
    In December 2016, in the waning days of the Obama 
administration, the Defense Science Board completed a report 
titled, ``Seven Defense Priorities for the New 
Administration.'' It made recommendations to the new Trump 
administration on key issues in the world of defense. Chapter 2 
of this report summarized years of work by the Board on nuclear 
deterrence, which is exactly what we will explore today.
    The Board has published 12 studies over the 14 years on 
this topic. So it is clear the Board has spent a lot of time 
thinking about this, as well it should. A defense mission of 
this importance seems worthy of sustained and focused 
attention.
    As the new administration and Congress goes forward with 
the nuclear modernization program initiated by President Obama, 
the Board's experts help us take stock. They help us understand 
how nuclear threats are evolving and how we should compensate. 
They help us understand where we have been and where we should 
go.
    Our witnesses today will be able to provide the collective 
views and recommendations of the Board as well as their own 
views as Board members.
    Ensuring a credible nuclear deterrent for the long-term 
future will continue to be a major priority for this Nation and 
the Congress and this committee.
    With that, let me turn to my friend and colleague, the 
acting ranking member from Washington State today, Mr. Larsen, 
for any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 23.]

     STATEMENT OF HON. RICK LARSEN, A REPRESENTATIVE FROM 
          WASHINGTON, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Larsen. Thank you, Mr. Chairman.
    Doctors, I join Chairman Rogers in welcoming you to the 
subcommittee. Thanks for helping us out.
    Ranking Member Cooper is unable to participate in today's 
hearing. He is pretty ill right now, just sort of kind of a 
head cold and can barely speak. So I am sitting in for him, and 
I know he would be here if he could.
    So as independent advisers, though, the DSB has an 
important role to play in making recommendations to the 
scientific and technical matters to the DOD [Department of 
Defense] leadership. And in its ``Seven Defense Priorities for 
the New Administration'' report, the DSB correctly noted that 
our nuclear forces remain a cornerstone of U.S. national 
security. I agree that this is one of the most important areas 
for the Department and for our community to focus on.
    Given how critical these nuclear systems are and with 
costly modernization programs occurring concurrently, we can't 
afford to get this wrong. While I appreciate the vision 
represented in the report, I would be remiss if I did not 
mention that DOD still has been unable to provide us with a 30-
year estimate on the full costs of nuclear modernization.
    It is not a matter of partisan politics. Members of this 
committee have been asking for this accounting across multiple 
administrations.
    In your report, you write that the budget for 
modernization, quote, ``will significantly compromise 
investments in conventional capabilities,'' unquote. This 
commonsense observation should alarm those who seek to downplay 
the impact on the defense budget of nuclear modernization and 
provoke all of us to understand the inherent tradeoffs that are 
looming.
    There are other elements of this report that I find 
concerning. You recommend prototyping and fielding low-yield 
nuclear weapons. I found the justification to be unclear. Are 
these intended to address new threats? To enable us to reduce 
our stockpile of other types of nuclear weapons? To deter a 
Russian escalate-to-deescalate scenario? Are they to keep 
nuclear weapon scientists sharp and interested in their 
mission?
    These are all very different objectives. I have not seen a 
sufficiently detailed analysis of what the proposals are, 
whether they are necessary, what alternatives are being 
considered, what the tradeoffs are, what the costs would be, 
and, of course, what the policy implications are.
    I also find this recommendation to run contrary to General 
Hyten's testimony yesterday. During the full committee hearing, 
General Hyten stated that the deployment of nuclear weapons is 
always an attempt to achieve strategic effects and disagreed 
with the distinction between tactical and strategic nuclear 
weapons.
    Smaller nuclear weapons would require prototyping. However, 
Dr. Richard Garwin and Dr. Roy Schwitters, both of the eminent 
JASON scientific group, strongly criticized the need and value 
of manufacturing prototypes of new nuclear weapons in written 
comments to this subcommittee last year.
    I am particularly concerned that new types of nuclear 
weapons would have significant policy and proliferation 
implications. Adding new military capability and building new 
nuclear weapons would be a radical shift, one that Congress, 
rightly so, has not been willing to approve for nearly 25 
years. This approach could lead to a requirement for renewed 
nuclear testing, a policy shift that would be unwise, 
unnecessary, and have potentially disastrous consequences in 
re-legitimizing nuclear testing and helping to advance our 
adversaries' nuclear forces.
    The DSB report more explicitly opens the door to the 
potential need to resume testing. Until now and for the 
foreseeable future, our top scientists have confirmed that 
there is no need to resume nuclear testing to certify the 
current stockpile.
    Still, there is much to commend in your report. It 
highlights correctly, I believe--and we get ice cream sometimes 
with our Brussels sprouts--it highlights correctly, I believe, 
the need for investments in detection and monitoring 
technologies, which can reduce the threat posed by nuclear 
proliferation. With new technologies such as 3D printing 
emerging, these investments can support current and future 
nonproliferation and arms control agreements with a robust 
technological foundation.
    The report also correctly identifies some of the 
geopolitical complexities that have challenged our nuclear 
deterrent. These include proliferation of nuclear weapons, and 
our allies' concerns that the U.S. may be weakening its 
security guarantees.
    As a candidate, the President expressed support for 
proliferation and seemed to threaten the sanctity of the 
American security guarantee to our allies. It is my hope that 
as Commander in Chief, he understands the destabilizing effects 
of these statements.
    A 2014 DSB report warned that, quote, ``For the first time 
since the early decades of the nuclear era, the Nation needs to 
be equally concerned about both vertical proliferation, the 
increasing capabilities of existing nuclear states, and 
horizontal proliferation, an increase in the number of states 
and nonstate actors possessing or attempting to possess nuclear 
weapons. Monitoring for proliferation should be a top national 
security objective, but one for which the Nation is not yet 
organized or fully equipped to address,'' unquote.
    Your comments and insights on this issue are most welcome. 
I would be interested in more specific recommendations in 
support of this mission, particularly with regard to what gaps 
remain and how we can use advancing technology and analytical 
approaches, including big data analytics, to improve our 
capabilities.
    I want to thank you for joining us today. And I yield back, 
Mr. Chairman.
    [The prepared statement of Mr. Larsen can be found in the 
Appendix on page 25.]
    Mr. Rogers. I thank the gentleman.
    I want to let the witnesses know that their entire opening 
statements will be accepted for the record. If you would like 
to just spend your 5 minutes summarizing, that is fine--or 
less.
    But I will take the first witness, Dr. Anastasio, for your 
opening statement--oh, okay. I understand that you have a joint 
opening statement?
    Dr. Anastasio. Yes.
    Mr. Rogers. And Dr. John is going to present that to us.
    And then the other two, if you have an opening statement 
you want to submit individually, we will take that for the 
record.
    With that, you are recognized, Dr. John.

 STATEMENT OF DR. MIRIAM JOHN, DR. MICHAEL ANASTASIO, AND DR. 
        WILLIAM LAPLANTE, MEMBERS, DEFENSE SCIENCE BOARD

    Dr. John. Thank you. I lost the coin toss.
    Chairman Rogers, Ranking Member Larsen, and members of the 
subcommittee, we thank you for the opportunity to testify today 
concerning ``Nuclear Deterrence--The Defense Science Board's 
Perspective.'' And we are here representing the Defense Science 
Board.
    We are going to discuss our principal findings and 
recommendations over the past 15 years' worth of work, and as 
you noted, they are summarized in chapter 2 of the report that 
we issued in December.
    For those that are not fully familiar with the Defense 
Science Board, we are indeed a Federal advisory committee to 
the Secretary of Defense and a source of independent scientific 
and technical advice.
    Our tasking, we do not invent our tasking. Our tasking 
comes from Department leadership and occasionally comes from 
you all, from Congress. And, typically, it is to address tough 
problems that may not have a lot of structure, like cyber and 
nuclear in the early days of its emergence, and/or problems it 
may present on the positive side, game-changing opportunities. 
We have done a lot of work in things like directed energy over 
time, autonomy, and electronic warfare.
    There are currently 46 members of the Board, and we come 
from a wide variety of walks of life in the national security 
arena. The three of us represent, all right, over 100 years of 
experience in the nuclear area. And when we wrote that down, my 
God, I felt old.
    All right. For the topic of this hearing, namely, the DSB's 
perspective on nuclear deterrence, we have summarized over a 
decade's worth of work in chapter 2 of our recently released 
``Seven Defense Priorities for the New Administration.'' Based 
on what you have already heard this week, and especially 
yesterday from our military leaders, you are probably not going 
to learn much new from us, because there is a lot of 
harmonization of views. It is just that we have been saying it 
a lot longer, I think, than they have.
    Our working assumptions have always been that there is no 
more important defense objective than preventing a nuclear 
attack on the United States or its allies, and the foundation 
for prevention is deterrence.
    Three key points that we would make around that, and you 
can find them in the report, although they are not stated quite 
this succinctly.
    The first, the threat environment has been evolving in very 
troubling ways. Since the end of the Cold War, the United 
States has sought to raise the threshold for nuclear use, at 
least for ourselves, by emphasizing dramatically improved 
nonnuclear or conventional force capabilities.
    Unfortunately, others have gone the wrong way--let's just 
say different directions--in part, because they can't afford to 
overmatch us conventionally. Russia has modernized and expanded 
the capabilities of its nuclear force. China has expanded both 
its nuclear and nonnuclear forces. And we face a new and 
unpredictable nuclear proliferator in North Korea.
    We have also seen attempts at commerce in nuclear know-how 
and materials and acquisition--attempts at acquisition 
elsewhere, name them. North Korea, Libya, Pakistan, Iran are on 
the list.
    The second point, modernization of the triad and the 
infrastructure to support it is long overdue. The triad remains 
a key component of the Nation's deterrence posture. The 
platforms and warheads have aged well beyond their original 
design intent. In addition, critical elements of the DOE 
[Department of Energy] production infrastructure are very old 
and inefficient. We simply can't wait any longer to renew all 
three legs of the triad and to assure their operational 
viability and readiness.
    Our third point, and this is the one that may engender the 
most discussion, we must hedge against an uncertain future. We 
should expect--we already are, but we should expect that it 
won't change, that the future holds a very dynamic geopolitical 
environment for us, that the advances in science and technology 
are happening at a breathtaking pace and are happening on a 
global scale, and continued attempts by adversaries will be 
paramount in thwarting U.S. advantages.
    To ensure a robust deterrence posture besides the triad, 
there is much more to the story, and we believe there also need 
to be healthy efforts to, one, deepen our insight into the 
developing capabilities, doctrine, and threats of current and 
potential adversaries. So we have got to keep an eye on what 
they are doing.
    We need to ensure a very robust nuclear command and control 
and communication system. We need to ensure the survivability 
of U.S. forces, both nuclear and nonnuclear forces, in the face 
of their use of nuclear weapons. And we need to ensure a 
demonstrated, flexible, and adaptive capability to respond to 
changing threats through a strong research and development 
program.
    And finally, and equally important, we need to prevent 
further proliferation through both cooperative and unilateral 
measures, through the tools of diplomacy, and through renewed 
and strengthened efforts at assurance of extended deterrence to 
our allies.
    The linchpin of all this, of course, is the demonstrated 
skills of the talented, knowledgeable, committed, and valued 
people who are part of this enterprise.
    With that brief background, we would be happy to take your 
questions.
    [The joint prepared statement of Dr. John, Dr. Anastasio, 
and Dr. LaPlante can be found in the Appendix on page 28.]
    Mr. Rogers. I thank you. And I will recognize myself for 
the first set of questions.
    The DSB report from December says that we should focus our 
nuclear weapons R&D [research and development] on concept and 
advanced development. Prototyping, placing options on the shelf 
should be needed rapidly. It goes on to say: Already, the DOD 
can anticipate the need for capabilities such as hardening or 
maneuvering for defensive penetration.
    In this open forum and in more detail later, when we are in 
our classified session, would you please explain why the DSB 
and DOD anticipate needing to pursue capabilities like 
maneuverable warheads or lower yield, primary-only missile 
warheads?
    Dr. Anastasio. Well, Mr. Chairman, I am trying to be 
careful.
    Mr. Rogers. Well, what you can't say here we will say in 
the classified.
    Dr. Anastasio. No, I understand. I am just getting my 
thoughts right.
    I think the issue is the developing capabilities in our 
adversaries like the Russians and the Chinese with more and 
more capable denial capabilities, denial our access for our 
systems. They have to believe that if we were ever--if a 
President ever made a decision to use it, that it would get to 
its target. And if they develop capabilities to try to deny us 
that, then we need to assure that we have alternate ways to do 
that.
    And I think that is the origin of the thinking about how do 
you anticipate what might be coming from an adversary and have 
our deterrent be in a place where we can counter their 
capabilities. And so we should be thinking about the kinds of 
options that we in the military might have to do that. So how 
do you anticipate what a future threat might be and how are we 
going to be prepared to deal with that?
    Mr. Rogers. Based on the threats we see developing with our 
adversaries, when do you think we are going to need to be able 
to field these capabilities that you referenced?
    Dr. Anastasio. Well, I think they are developing 
capabilities now, and we can talk more about that later. And I 
think it is it up to the military and the Defense Department 
and all the leadership of the country to decide what actually 
needs to get done when. But I think those capabilities are 
developing, and we can talk about that later.
    Mr. Rogers. Okay.
    Dr. LaPlante. I would just add, Chairman Rogers, to my 
colleague that one of the things that the science and 
technology community must do is always understand the limits of 
what physics and engineering can be done. That is separate from 
what the threat is assessed to be.
    So we have a duty to understand things like the 
maneuvering, what is capable technologically, and what could be 
done to counter it, both ways, offensive, defensive. We have to 
understand that and be ahead of a potential adversary.
    So just from a technical edge and an engineering edge, we 
have to understand that, and then watch, as you say, as the 
threat evolves or if operationally there is a change, we can 
provide to the policy makers, to the leadership, what the 
technology can do or what it can't do.
    Mr. Rogers. Do warhead life extension programs truly 
utilize all the design, engineering, science, and manufacturing 
capabilities that would be needed to produce a new nuclear 
weapon?
    Dr. Anastasio. Not completely, Mr. Chairman. What we are 
doing with the life extension programs is largely renewing the 
capabilities, the systems that we had during the Cold War. And 
in some cases, we are having to make some accommodation to the 
fact that certain materials and so forth are not available 
anymore. But, largely, we are replicating something that we 
had.
    What we are not doing is exercising that full end-to-end 
partnership with the Department of Defense and DOE to think 
about what a requirement might be, how would you go implement 
that requirement with the constraints that get imposed, and 
then carry that all the way through to developing a weapon 
system out the door that could potentially go in the stockpile.
    And we have not exercised that full system process since 
the end of the Cold War, for over 25 years. So there is a skill 
set that is involved in doing that process and that 
collaborative work between DOE and the DOD that we haven't 
fully exercised. Certainly, doing the LEPs [life extension 
programs] exercise is part of that, but not that full sweep.
    Mr. Rogers. What should Congress do to improve the 
stockpile responsiveness program to get after the problems you 
have described here in your report?
    Dr. John. We saw your authorization for the stockpile 
responsiveness program as a huge step forward, but it is 
authorized and it is not appropriated. So there needs to be 
some continued encouragement that DOE put money behind it, but 
it is also important that it is a partnership with DOD. And it 
is not on the radar screen at DOD to think about the future at 
this point, because there are trades to be made between what 
you put on the weapon, what you put on the delivery platform.
    And across the board, they have got to be concerned about 
the new threats to new systems that we are putting forward. And 
I would throw out cyber as something that this community is 
just waking up to thinking about.
    Mr. Rogers. Okay. Thank you. The Chair recognizes the 
ranking member for any questions he has.
    Mr. Larsen. Thank you, Mr. Chairman.
    So the 2014 report warned of this vertical proliferation 
and horizontal proliferation. It led to a provision in the NDAA 
[National Defense Authorization Act] at the time calling for a 
national roadmap, identifying costs, gaps, opportunities to 
partner with industry and academia that would improve nuclear 
verification. We are still waiting to get that report 3 years 
after the provision in the bill.
    Do you think that report should be a priority for the 
administration to answer those questions?
    Dr. John. Well, since I was the prime mover behind that 
report, you would see me say, yea, verily. Because for one 
thing, technology has moved forward in ways that would allow us 
to do a much stronger job at what I would call early, early 
detection of proliferation where you have many more options to 
either cooperatively or unilaterally thwart the acquisition by 
a new proliferant.
    I will say that my somewhat limited insight into things 
that have happened around a Presidential directive in the last 
administration created some working groups across the 
interagency. And I had the opportunity to spend the day with 
them about a year ago, and I have never seen so many different 
intelligence community representatives who knew each other and 
were sharing information.
    Now, that is the good news. And you say, why is that 
happening? Well, it is a very small community still, so it has 
been easy to make the connections.
    We on the Defense Science Board are about to publish 
another report that really hammers home this early, early 
warning piece and the potential for the tools of big data 
management and acquisition and data analytics and the promise 
that that holds, particularly when you tap into open source, 
for the sort of cueing that you would need on where to look and 
all. So continued emphasis on that, because it is a new 
paradigm for the intelligence community to step up to this.
    Dr. Anastasio. Could I add one more thought to that? Which 
is that as technology evolves and as we do more R&D, you can 
imagine that the paths to proliferation can change. When we get 
in another room, we can talk more about opportunities like that 
that could be out there that would be nontraditional paths, 
and, hence, the R&D community needs to help the intelligence 
community understand what are the potential threats of the 
future that might come about and how would you look for those, 
too. So it is not just monitoring what you are used to 
monitoring, but, perhaps, there are other things you have to 
look for.
    Mr. Larsen. Would you argue, then, this could help us with 
detection and verification as well?
    Dr. John. We really didn't touch the verification problem 
in what we looked at. We started out to, because we had 
anticipated a more robust arms control agenda when we started 
the study in the 2010 timeframe, and that quickly fell apart. 
But at the same time, arguing among ourselves, we actually were 
taken with the fact that we have a problem with proliferation 
that seems to be cropping up in many different ways. And so 
let's take a step back and figure out if we have got the tool 
set to be able to deal with what we see coming.
    Mr. Larsen. Yes. Would you suggest that that be on our 
plate, the subcommittee, to look at that?
    Dr. Anastasio. Verification?
    Mr. Larsen. Yes, the verification, the use of these new 
tools and how it applies to verification.
    Dr. John. I am not sure, because it depends on what 
treaties are going to be honored by our partners who have 
signed up and the like as to how much to put in a verification 
piece of it at this point.
    Dr. Anastasio. I think there has been work done in the past 
to think about how you do verification on what potential 
agreements might look like, and if you get to the point where 
you are starting to count warheads themselves, the individual 
objects, how would you do verification of that and how could 
you agree on protocols for how to do that, et cetera. And there 
has been work done on things like that. And so that might be 
something that is worth the committee getting updates on. But 
it does depend on what you might think an agreement of the 
future might look like.
    Mr. Larsen. Yes. Okay. Thank you, Mr. Chairman. I will 
yield back to other members.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you. And thank you for all the work that 
you have done on these important issues.
    You talk about the lack of funding, and you talk about the 
modernization that Russia and China have done in recent years 
but we have not done because of lack of commitment and funding. 
And I think after meeting with some of the uniformed people 
that we have listened to this week, and previously also, we 
know the way forward. We just have to have the financial 
commitment to do the modernization and upgrading and enhancing 
reliability and safety and security.
    If we don't do that, what is the risk that our nuclear 
umbrella has if it begins to develop leaks, if the 30 or so 
allies that rely on our nuclear umbrella have doubts as to 
whether we can actually carry through on our commitments? Will 
they begin to contemplate developing their own nuclear 
programs, for instance?
    Dr. LaPlante. As you note, Congressman, the fact that we 
have put off modernization for lots of reasons until where we 
are today, where we basically have no more life extension that 
can be done, that is one of the reasons why we are in this 
situation today where you have in the 2020s all this stuff that 
has to happen at the same time. We can't push it anymore.
    It is remarkable that we are flying the B-52s today in the 
nuclear mission. Grandfathers, sons, and grandsons, literally 
have the same airplane. It is absolutely remarkable. As a 
former chief of staff for the Air Force used to say, it would 
qualify for an antique license plate in the State of Virginia.
    So I think, getting to your question about how does that 
deal with our allies, giving them confidence, well, no matter 
what you say in terms of your commitment, if you don't do it, 
and if you don't keep your systems current, people are 
watching. They are watching not just what you are saying, they 
are watching, are you really going to extend and go into the 
next version of Ohio replacement? Are you really going to build 
this bomber? Are you really going to do it and not just talk 
about it, not just study it? And we are sort of at that point 
where we are either going to do it or we are not, because, 
really, you can't life extend. So I would imagine everybody is 
watching what we do for all the reasons that you imply.
    Dr. John. Just to add a little color here, I guess. There 
are discussions that have been ongoing, I am sure you are all 
aware, in South Korea and Japan. They are not the majority yet, 
but the noise is there. And, my God, the last week, the Poles, 
the Germans said, maybe we better start thinking about a NATO 
European-owned deterrent. So we have got some fraying around 
the edges here. And so it is part what we do. It is also part 
what we back up with our words and actions.
    Mr. Lamborn. Let me ask about one other possible erosion of 
our nuclear umbrella, and that is the lack of testing. It has 
been 25 years since any tests have been done. I think we can be 
confident today that our weapons would still perform as needed, 
as advertised. But as each year goes by, we are going to lose, 
I believe, some of that certainty and the day will arrive when 
we need to negotiate with near peers about maybe a one-time 
round of testing and negotiate it.
    What threat do we have--and I will disagree with my 
colleague to my left--what risk do we have if our credibility 
becomes eroded because people don't have confidence that the 
weapons will actually--or at least all of them will perform?
    Dr. Anastasio. Let me try to take that one on, since I had 
the honor to write nine of the letters, annual assessment 
letters that go to the President and Congress about the need 
for testing. And I would reiterate that I believe and that I 
think the Defense Science Board believes that there is no need 
for testing right now. And the way I think about it is that 
nuclear testing is a tool. It is a technical tool to help us do 
a job. And our view is that the job we have today, we don't 
need that tool right now.
    The question becomes, would I need it in the future? Well, 
the answer to the question depends on what my job is in the 
future. There are potential versions of the job, like the job 
we had in the Cold War, for which we would say we do need 
nuclear testing. But if the job looks like the one we have 
today, I think the view is that we don't believe that is an 
essential element, a tool, for us to get our job done with 
confidence. So it is a tool to be used, and it depends on what 
you are trying to accomplish when you do it.
    The other piece is, as our chairman of the Defense Science 
Board reminds us, we should be humble about the future. We 
don't know what the future is going to look like in 10 or 20 
years. And so to make a blanket statement about what it is we 
need or don't need then is probably a fool's game.
    Mr. Lamborn. Thank you.
    Mr. Rogers. Thank you. The Chair will now recognize the 
gentleman from California, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman.
    A lot of things to discuss here. I think we are spending 
several billion dollars on a testing machine in Lawrence 
Livermore, aren't we, Dr. Anastasio? How is it working?
    Dr. Anastasio. I believe you are talking about the National 
Ignition Facility, the NIF?
    Mr. Garamendi. Oh, yes, that is what I am talking about.
    Dr. Anastasio. I don't work at Lawrence Livermore anymore.
    Mr. Garamendi. Well, I know you are familiar with it. You 
spent a lot of time teaching me about it, so----
    Dr. Anastasio. Yes, sir. And it is good to see you, again, 
sir.
    I think the Defense Science Board has looked at NIF and has 
felt it was a valuable tool and asset for the Stockpile 
Stewardship Program.
    Mr. Garamendi. We will let it go at that.
    Dr. Anastasio. I will say that much.
    Mr. Garamendi. I think we need an update on that. It is an 
important element in what Mr. Lamborn just talked about.
    I want to go to a recommendation here about tactical 
nuclear weapons. And under what circumstances does the Board 
assume that we would be using them?
    Dr. John. We were puzzled by the reference to us 
recommending tactical nuclear weapons, because we never wrote 
that. We just didn't say that.
    Mr. Garamendi. Then how did I come to believe that you did? 
Maybe somebody is interpreting your work?
    Dr. John. Yes. I think somebody decided what we meant to 
say was.
    Mr. Garamendi. What did you mean to say? Where are you with 
tactical nuclear weapons?
    Dr. John. If there is a military need, if the military 
stands up and says, we need it, then the enterprise will 
respond. But there is no military requirement right now.
    Mr. Garamendi. Let me be sure that I understood. As far as 
the Board is concerned, you know of no military requirements 
for tactical nuclear weapons?
    Dr. John. Today.
    Mr. Garamendi. Well, there is tomorrow.
    Well, how about low-yield weapons, what is the purpose of a 
low-yield weapon?
    Dr. Anastasio. Well, currently, without going into any 
detail here, we have weapon systems that have low yields.
    Mr. Garamendi. Yes, we do.
    Dr. Anastasio. As you know. And so they have a purpose. We 
have a requirement. The enterprise has a requirement to produce 
those, and that is fine.
    I think the discussion that you have seen in this document 
was intended to be along the lines: We don't know what the 
future brings. We do see what adversaries are off doing. And I 
think the Board felt it was prudent for us to spend time 
thinking about how might we respond to a different requirement 
than we have today sometime in the future, would we be ready to 
respond to that?
    Mr. Garamendi. In other words, do you have a low-yield 
tactical nuclear weapon?
    Dr. Anastasio. Well, there are many, many different kinds 
of options that could be possible in the future and are we 
ready to be able to respond to that. So it is a capability 
question. It is not a recommendation that this is something 
that the country should be doing now. It is a desire to be 
capable of thinking about such a thing in the future.
    Mr. Garamendi. Well, help me think about it for a while. We 
do have a nuclear weapon that has a quite low yield----
    Dr. Anastasio. Yes, sir.
    Mr. Garamendi [continuing]. And a quite high yield. Does 
that meet the anticipated--potential anticipated needs that you 
are thinking about? If not, why not?
    Dr. Anastasio. Let's see, I am trying to think of how to 
answer that. We don't have a requirement for something other 
than that. So what might happen in the future is speculation.
    I think what we are trying to--our intent was to 
distinguish between the technical capability of this enterprise 
versus the policy questions. We were not trying to address the 
policy questions of whether that is a good thing to do or an 
appropriate thing to do sometime in the future. It was more, 
are we as an enterprise collectively in the DOD and the DOE 
capable of responding to a different requirement than the ones 
we have today? And that is a technical capability question 
versus a statement about what the policy should be.
    Mr. Garamendi. I am out of time. I will come back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Louisiana, Dr. Abraham, for 5 minutes.
    Dr. Abraham. Thank you, Mr. Chairman. I thank the witnesses 
for being here.
    The DSB report from December emphasizes, and I am going to 
quote, ``that the nuclear weapons are a steadily evolving 
threat,'' end of quote.
    Would you please describe how the nuclear weapon threat has 
evolved, particularly since the last NPR [Nuclear Posture 
Review], I think what was written in 2010, the new threats, the 
new vulnerability, opportunities that have emerged are changed 
since that 2010 report?
    Dr. John. Let's see, we will be a little bit careful until 
we go into classified session, but certainly there is plenty of 
awareness in the public domain that Russia is fielding their 
modernized systems. They have been at it since the late 1990s 
to retool their capabilities. And that includes a number of 
advances in their air defense systems that present very thorny 
opportunity--I mean challenges for us to be able to penetrate 
Russian airspace.
    In addition, the Chinese have gone from order a dozen 
strategic weapons, as in long-reach weapons, to something like 
100 or so. And look at North Korea. We have underestimated them 
every step of the way. I will stop it at that.
    Dr. Abraham. Okay. And we will pick this up in a different 
briefing. That is all I have, Mr. Chairman. Thank you.
    Mr. Rogers. The Chair now recognizes Ms. Hanabusa for 5 
minutes.
    Ms. Hanabusa. Thank you, Mr. Chair. Thank you all for being 
here.
    I think the problem that I am having with this is that when 
we talk about nuclear deterrence, you seem to imply in your 
report that there is both nuclear weapons, but also nonnuclear 
weapons that can also act as deterrents. And you talk about the 
triad, and we had a session yesterday where I was telling the 
military members who were sitting where you are that I think 
the assumption of the triad was something that I questioned 
right off the bat. In other words, how can you say something 
that has been in the shape that it has been for all these 
years, you talk about modernizations, which you also talk 
about, and then somehow the modernization includes the 
structure that has been there for all of these years.
    So what I would like to ask you is, when you talk about the 
deterrence of nuclear weapons and you also mention the 
nonnuclear weapons, what are you talking about? And when you 
talk about modernizing the triad, it seems to assume that 
somehow the inherent structure of the triad is what we need. 
And I just can't understand how when you sit here before us 
that that would be something that you would begin this whole 
discussion with. So if anyone can take a stab at that.
    Dr. LaPlante. I can start by saying the Board believes and 
enforces the fact that the triad needs to be strong, robust, 
and modernized. One would argue that we have used the--we use 
the triad every day, and we use the ICBMs [intercontinental 
ballistic missiles], we use the SSBNs [ballistic missile 
submarines] every day, we use the bombers every day, okay? We 
talked earlier about the fact that they are all running to the 
end of their life. And so what the Board has pointed out, as 
has others, is it is time to modernize.
    Now, the triad itself is the ultimate part of deterrence. 
It is the ultimate. It is to deter the country against, God 
forbid, a nuclear attack. And the fact of the matter is there 
are other kinds of deterrence, lower on the escalation ladder, 
as you imply, conventional. But, God forbid, if all of those 
failed, all we have is the triad, and that is our point.
    The other point about the triad is each leg of the triad 
has unique characteristics, and they are actually complementary 
with each other. The ICBMs, in order for an adversary to take 
out the ICBMs in a first strike, would have to be a massive 
first strike against the continental United States, something 
that would be a very high bar for any country, God forbid, to 
even think about, and that is what we want them, not to think 
about it.
    The bombers have an inherent flexibility. We can signal 
with the bombers. We can move them. We can show them. We can 
recall them. They have a flexibility that is unique of 
themselves. The SSBNs are an ace in the hole. No matter what 
happens, they will always survive and be there as a credible 
second strike.
    Now, there is always talk and there will be talk and there 
should be talk about is there a better way to do business. And 
we would encourage that. We think the NPR that is being started 
should be informed by the best experts. But the triad as I just 
described it and having it be modern and having been it be 
proficient and credible is the state that we are in, and that 
is what the Board emphasized in its report.
    Ms. Hanabusa. So when the Board says it should be modern, I 
guess that is the problem I am having. I understand the SSBN. I 
understand the move from Ohio to Columbia class. That I 
understand. But when you talk about bombers or ICBMs, how do 
you modernize ICBMs?
    And your other statement that I find curious, you say, we 
use it every day. How are we using ICBMs every day?
    Dr. LaPlante. Right now there are people in the missile 
fields, in the LCCs [launch control centers], airmen in the 
LCCs, that are airmen doing that mission. So they are doing 
that mission right now as we speak.
    Ms. Hanabusa. So are you saying we are deploying ICBMs 
every day?
    Dr. LaPlante. No, the deterrence posture--we have right now 
SSBNs in the ocean, we have ICBMs in CONUS [continental United 
States], in the United States, and we have bombers. Those are 
all part of an active deterrent that operates 24/7.
    Ms. Hanabusa. So when you say we are using it every day, 
you are not meaning we are actually using it in the 
conventional sense. You mean just their presence is sufficient 
to be the deterrent?
    Dr. LaPlante. Absolutely. Absolutely.
    Dr. Anastasio. Absolutely.
    Dr. LaPlante. In fact, that is the point. The point is, you 
know, there are the three C's of deterrence: credibility, 
capability, and clarity. And this is part of the capability. We 
have to show that we have this capability.
    Ms. Hanabusa. My time is almost up, so we will continue 
this in the next session.
    Dr. LaPlante. Sure.
    Ms. Hanabusa. I yield back, Mr. Chair.
    Mr. Rogers. I thank the gentlelady. The Chair now 
recognizes the gentleman from Colorado, Mr. Coffman, for 5 
minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    When we talk about the triad, I am awfully concerned about 
the next-generation bomber. And given our capability in terms 
of cruise missiles, of precision guidance, guided munitions, 
those things, how important is it to have--I mean, is that part 
of the triad in terms of having a next-generation manned 
bomber? Is that dated or is that still as critical as it has 
always been?
    Dr. LaPlante. The Board has not, as far as I know, 
actually--the Defense Science Board has not addressed that 
specific question. I have personal experience in this in my 
previous job as the Assistant Secretary of the Air Force, but 
the Board has not answered that.
    But I would say that it is a policy of the United States 
and the plan that the next bomber, the B-21, is replacing and 
is that part of the triad. And as the Air Force has stated 
publicly, initially it is going to be manned, but they are 
building in the hooks and the capabilities, so if there is a 
potential future that it needs to be unmanned they don't have 
to start from scratch.
    Mr. Coffman. Okay.
    ``Redundancy'' is a term we hear repeatedly when discussing 
the nuclear triad and our ability to retaliate in the event of 
a hostile nuclear attack. How vulnerable are our satellite 
detection systems to Chinese and Russian kinetic kill or 
directed energy antisatellite weapons? Are these systems 
redundant in any way?
    Dr. LaPlante. I will try to answer it, because the Board 
has looked at space, and there is a limited amount we can say 
in this open session. But are you saying is the triad redundant 
given antispace capabilities?
    Mr. Coffman. That is right, ASAT [antisatellite] 
capability.
    Dr. LaPlante. By an adversary?
    Mr. Coffman. Right.
    Dr. LaPlante. No. No, it is not. In fact, quite the 
contrary. The idea being that these--like, I used the example 
of the SSBNs and others. We have to have ways that the triad 
can be a credible deterrent even in the most extreme 
warfighting scenario, and including in a space situation. So 
while we can't go into the details here, a nuclear command and 
control has to be robust enough to deal with the fact that 
space is going to also be contested, so communications that use 
space have to be considered redundancies, resiliencies to deal 
with that to make sure the triad works.
    But, no, no. In fact, the triad is supposed to be able to 
be robust against the full spectrum of space threats, cyber 
threats, and, God forbid, a nuclear threat.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
California, Mr. Khanna, for 5 minutes.
    Mr. Khanna. Thank you, Mr. Chair.
    Do you agree with President Ronald Reagan's statement that 
a nuclear war cannot be won and must never be fought?
    Dr. Anastasio. I think it is the hope of all of us that we 
never have a nuclear war.
    Mr. Khanna. That wasn't his statement. He said it must 
never be fought. I mean, it can't be won. Do you believe that 
he was correct, or do you believe that we need to reconsider 
President Reagan's approach to deal with nuclear weapons 
because the times have changed? And do you think that--are you 
here saying that his thinking is outdated, or do you believe 
that his thinking still applies?
    Dr. Anastasio. I don't know if I could speak for the Board 
in that regard.
    Dr. John. Let's see, let me help Mike out a little bit. 
That is a policy statement which we, representing the Defense 
Science Board, really would act upon or not.
    We will say that we start with prevent nuclear war, and the 
foundation for that is deterrence. And as I believe one of your 
briefers said yesterday, and I can't remember who it was, or 
General Kehler might have said in different testimony, that the 
paradox of deterrence is that they have to be convinced that 
you actually would use it. We have devoted our lives to putting 
substance behind that proposition, and if you think there is a 
better way to do deterrence, I think we would love to hear it.
    Mr. Khanna. I guess I want to get your views in terms of--I 
mean, I think President Reagan--and I disagreed with him on so 
many things, but I think that many people would say that he had 
an aspiration for peace. He, if you read his biographies, said 
that he never wanted to see nuclear war. That is why he came up 
with Star Wars, whatever you may think of it.
    And my question is just he clearly would disagree with what 
you are proposing, at least from his public statement. So are 
you rejecting President Reagan's legacy on this issue? Which 
would be fine, I mean, you can say we are in different times 
and President Reagan didn't know what he was talking about when 
it came to nuclear deterrence and you have a different 
approach. I just want to see if that is your view.
    Dr. John. I don't know how different it is today, because 
the most significant modernization program, last modernization 
program, was in his administration, modernization of our 
nuclear weapons.
    Dr. LaPlante. We are living off the modernization, many of 
which was done during the Reagan administration, the Ohio 
class, the Minuteman. And so, again, the Defense Science Board 
is not a policy board.
    Now, clearly, the objective of having a triad as a 
deterrent is stability. And stability is, as I my colleague 
here said, is what you are after. You are after stability. You 
are after stability. And the paradox is to get stability in 
deterrence theory, you have to have a credible capability. That 
is the paradox.
    Mr. Khanna. I guess I still want to just get to the point. 
I agree with your point on modernization having been done 
there, but your quote, which is in the Defense Science Board's 
report, that you believe in a more flexible nuclear enterprise 
for limited use, that basically what you are saying is that we 
should have a first strike option if it is in our strategic 
interest. Is that not correct? I mean, because that is how 
Senator Feinstein characterized it in her op-ed this morning.
    Dr. Anastasio. I would suggest that that is not what we--
what the Board believes. What we believe is--as my colleague 
said, we are not making policy recommendations. What we are 
trying to say, is in an uncertain future, are we capable and 
prepared to respond in whatever way the policy makers in this 
country decide we should? Are we prepared, are we capable, can 
we go execute that if that were something that was required of 
the community?
    And that is one of the things that we believe has been 
ignored in recent decades, which is, how do you think about 
what potential things you might have to do in the future and 
how do you assure the country and our adversaries that if this 
country has to go a different place, that we are ready to go 
there and capable of doing that?
    And so it is not making a policy recommendation that we 
should do this or should do that, and I think that is a 
misreading of our report.
    Mr. Rogers. The gentleman's time has expired.
    The Chair now recognizes the gentlelady from Wyoming, Ms. 
Cheney, for 5 minutes.
    Ms. Cheney. Thank you, Mr. Chairman.
    I want to take issue with my colleague from California's 
interpretation of Ronald Reagan's policy. You know, President 
Reagan believed and said that war comes not when the forces of 
freedom are strong, it is actually when we are weak that we are 
threatened.
    So wouldn't you say that fundamental to the notion that 
nuclear war should never be fought is the idea that our forces 
must, in fact, be so strong, so able to overwhelm any adversary 
that they understand they will not survive such a conflict? 
That, in fact, deterrence requires both a characterization and 
calculation about the threats we face, but also ensuring the 
lethality, the modernization, the effectiveness of our force 
across a broad array of circumstances so that our adversaries 
never mistake any action that we take for some sort of 
indication that they could actually prevail in a nuclear 
conflict?
    Dr. Anastasio. Yeah, it is a risk-benefit. It is, does an 
adversary believe that if they take an action that they would 
gain more benefit than they would have to pay a cost in our 
response?
    And I think my comment, back to the previous question, was 
along that line, is how do we make sure an adversary believes 
that whatever avenue they try to follow to negate the military 
capability of this country, whatever avenue they pursue, that 
we are ready and capable of responding in whatever way we have 
to, to convince them that whatever benefit they think they 
might accrue, that is not going to work, and that we can impose 
a cost that is much more significant than the benefit they 
think they can gain.
    Dr. LaPlante. I would just add that the classic deterrence 
theory is, this is the hardest part, is you are really trying 
to get--all that matters is inside the head of the adversary or 
peer that you are trying to deter. And so, as my colleague 
said, the idea behind deterrence, the theory of deterrence is 
fundamental, is that, as you said, whatever action that this 
adversary, potential adversary, is going to take to their 
advantage, that they must be convinced that the downside of 
taking that action will way overrule any upside they will get. 
That is the theory.
    Ms. Cheney. Thank you. And I think it is important also 
just for the record to point out that it was the policy of 
President Reagan to ensure that we had superiority across the 
Board, including in our nuclear forces, so that, in fact, we 
could guarantee that nuclear war would never be fought.
    I yield back, Mr. Chairman.
    Mr. Rogers. All right. The Chair now recognizes the ranking 
member.
    Mr. Larsen. Thank you, Mr. Chairman. I would just ask 
consent to enter into the record the January 11 statement from 
Roy Schwitters and the January 11 letter from Richard Garwin, 
both with regards to Peer Review and Design Competition in the 
NNSA [National Nuclear Security Administration] National 
Security Laboratories.
    Mr. Rogers. Without objection, so ordered.
    [The information referred to can be found in the Appendix 
beginning on page 41.]
    Mr. Rogers. We are now going to stand in recess as we move 
to--what room are we moving to? To another room. We are in 
recess.
    [Whereupon, at 4:31 p.m., the subcommittee proceeded in 
closed session.]

?

      
=======================================================================




                            A P P E N D I X

                             March 9, 2017

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 9, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 9, 2017

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 9, 2017

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. What are your recommendations regarding how the 
Stockpile Responsiveness Program authorized by Congress in the FY16 
NDAA, and the foreign design prototyping requirement in the FY15 NDAA, 
could be improved to better tackle the concerns expressed by the DSB? 
What actions should the administration take here? What actions should 
Congress take here?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. As stated in the ``Seven 
Defense Priorities. . .'' report, the DSB believes that a hedge against 
uncertainty is as important a part of the nation's nuclear weapons 
program as both the certification of the current systems and the life 
extension or replacement of systems that have aged out. The foreign 
design prototyping requirement, known as the Foreign Nuclear Weapons 
Initiative (FNWI) in the FY15 NDAA and the Stockpile Responsiveness 
Program in the FY16 NDAA were positive steps to support such hedging, 
but their focus is on DOE. Two ways the Stockpile Responsiveness 
Program could be more effective would be through the participation of 
the DOD and with Congressional funding of the Program, to include 
options for prototyping promising concepts. The FNWI would also benefit 
from a DOD partnership to posit a set of signatures not just of threat 
warheads, but also system and operational capabilities for which the 
intelligence community could monitor as early as possible.
    Mr. Rogers. Please describe why the DSB thinks it is important to 
truly flex all of the muscles needed to build nuclear weapons from 
scratch? Why don't life extension programs flex all of these muscles?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The DSB has confidence 
in the current U.S. stockpile but believes that the nuclear weapons 
have aged well beyond their expected lifetimes with no margin to 
further extend their life. Life extension programs (LEPs) for existing 
delivery platforms and warheads are essential to sustain the safety, 
security, and reliability of our currently fielded systems, but only go 
so far and do not produce a fully modernized system with a long life, 
nor do they address the growing concerns about our ability to be 
flexible in the face of unpredictable threats. However, LEPs are 
replacement programs that rebuild fashion, legacy system which 
originated during the last decades of the Cold War. They do not 
exercise the full scope of activities across the spectrum of concept 
development, design, engineering, production, and certification. To be 
sure, LEPs often involve some level of component or subsystem redesign 
and certification as duplicate replacement parts may no longer be 
available. But they do not start from a ``clean sheet'' for the entire 
system in which the options that would optimize the system for the 
purposes the nation might need can be explored--whether that 
optimization be fore performance, improved margin, employment of new 
manufacturing techniques, etc. The DSB recognized this shortcoming in 
an LEP approach as early as 2004 and again in 2006, as limiting 
flexibility against an uncertain future, and calling for research to 
meet emerging needs for east of manufacture, higher margins, lower 
collateral damage, and special effects. If the nation ever decided it 
needed something different, the DOD-DOE partnership would need to 
recreate skills that have atrophied over the last 25 years in the 
context of different requirements and constraints (such as modern 
delivery platforms or no nuclear testing).
    Mr. Rogers. The DSB report indicates that U.S. nuclear force 
planning must do a better job anticipating threats and be ready to 
respond to them. What are some of those threats? How should our nuclear 
forces programs and enterprise be postured to respond to them? Do DOD, 
NNSA, and the IC have an active and ongoing effort to anticipate 
threats in the nuclear weapons realm? What is it? What can Congress do 
to help ensure DOD and NNSA are effectively and actively working to 
anticipate threats?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. The DSB's report from December emphasizes that 
``nuclear weapons are a steadily evolving threat.'' Would you please 
describe how the nuclear weapons threat has evolved, particularly since 
the last Nuclear Posture Review (NPR) was written in 2010? What new 
threats, vulnerability, or opportunities have emerged or changed since 
2010 that the new NPR must take a clear-eyed look at?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. Since the late 1990s, 
Russia has been on a path to emphasize nuclear weapons as an integral 
part of its security strategy by modernizing its strategic forces, 
expanding its tactical capabilities, and promulgating and exercising 
new doctrine for regional and strategic use. Since the 2010 Nuclear 
Posture Review, the breakdown of any further U.S.-Russia arms control 
discussions, Russian violation of the Intermediate Range Nuclear Forces 
treaty, and its aggressive actions along its borders have occurred. 
Russia's threatening actions on the borders with U.S. NATO partners 
raised concerns about the alliance's commitment to mutual defense. In 
addition, China made nuclear modernization and expansion of its 
strategic arsenal a key part of its massive military expansion and 
continued to surprise the U.S. with the speed at which it has fielded 
new systems. North Korea has continued to develop and operationalize 
its own nuclear force seemingly without more price to pay than it 
already has. In both technical and operational aspects, Russia and 
China are introducing asymmetries in nuclear capabilities and concepts 
of operation that incorporates nuclear warfighting options in a more 
integrated--or ``cross-domain''--approach with non-nuclear forces. 
North Korea's opacity creates numerous questions as to what 
capabilities would best deter it from further proliferation or use, and 
as a result, raises serious concerns in the minds of U.S. regional 
allies as to whether their interests are better served by having their 
own nuclear capabilities instead of relying on our extended deterrence 
guarantees. Depending on how these three situations unfold and how the 
U.S. addresses them, the potential for further proliferation is 
serious. Iran has demonstrated the difficult and tenuous nature of 
stemming a state actor who sees nuclear weapons as a deterrent or hedge 
against regional threats and as an equalizer against superior non-
nuclear military forces. A.Q. Khan, the Pakistani nuclear physicist, 
demonstrated the ability, even before the advent of such enablers as 
the dark web, to create an undetected network of nuclear commerce. To 
complicate matters further, technology is advancing in directions with 
the potential to make acquisition of a weapon more accessible to those 
with limited resources.
    Mr. Rogers. What action could the administration or Congress take 
to improve the readiness and responsiveness of the NNSA enterprise to 
produce nuclear weapons? Right now, it takes over 15 years to even life 
extend an existing nuclear weapon--this is far too long. What can we do 
to drive down timelines while maintaining safety and security (and 
minimizing costs)?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The sluggishness of the 
NNSA enterprise has been recognized as a serious problem through 
numerous studies, commissions and reviews over two decades, including 
the 2014 Augustine-Mies Congressional Advisory Panel ``A New Foundation 
for the Nuclear Enterprise.'' The DSB contribution to this topic came 
in a 2006 study ``Nuclear Capabilities.'' The DSB observations and 
recommendations differed little from the other studies both before and 
after its publication, except that it included both DOE and DOD in its 
review with the conclusion at that time that ``the production complex 
was not configured, managed, or funded to meet minimum immediate 
stockpile sustainment needs and that the organization, management, and 
programs at both DOD and DOE did not provide for a nuclear weapons 
enterprise capable of meeting the nation's future needs.'' Leveraging 
the Stockpile Responsiveness Program to explore design approaches that 
emphasize readiness and responsiveness provides another avenue to drive 
down timelines while maintaining safety and security. The governance 
structure and practices that have burdened the enterprise with 
excessive oversight, inefficiencies, and mistrust are consistently 
cited in almost all the dozens of studies as the root problems with 
NNSA. It remains to be seen whether the Panel to Track and Assess 
Governance and Management Reform in the Nuclear Security Enterprise, 
jointly established by the National Academies of Sciences, Engineering, 
and Medicine and the National Academy of Public Administration at 
Congressional direction to carry out a 4.5 year assessment of the 
NNSA's responses to longstanding problems, will provide the forcing 
function needed to affect the cultural change required to address the 
inherent problems.
    Mr. Rogers. The DSB report says ``The recent uptick in priority for 
nuclear force modernization in both departments sends a strong message 
of U.S. commitment to the deterrent, but it comes after 25 years of 
downplaying (and poorly resourcing) the mission.'' Would you please 
describe how this message has resonated within the DOD and NNSA 
enterprises? Has it improved morale, recruitment, or retention? When 
the DSB says the mission was poorly resourced, do you believe the 
nuclear modernization and budget plans laid out now are sufficient?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The DSB took a detailed 
look at nuclear skills across both DOD and Doe in 2008 (an expanded 
version of the 1999 Chiles Commission, also led by ADM Chiles) and 
identified some serious skills shortfalls fueled by strategy and 
leadership shortcomings in defining the nature and scope of the 
nation's nuclear deterrent. In addition, the DSB Permanent Task Force 
on Nuclear Weapons Surety undertook a series of studies from 2008-2013 
focuses on the Air Force in the wake of the accidental transport of a 
live round from Minot to Barksdale in 2007. Continuing missteps by the 
Air Force and more recent ones by the Navy led then-Secretary Hagel to 
request the ``Independent Review of the Nuclear Enterprise.'' The 
persistent message through these reviews were that the root cause for 
the operational mishaps linked to airmen and sailor perceptions that 
the mission was not valued by leadership, as evidenced through their 
actions that placed greater emphasis on compliance and inspections, and 
their lack of commitment to address long standing operational support 
shortfalls. Individual DSB members and a recent study on WMD deterrence 
are observing that the uptick in priority for nuclear force 
modernization has definitely improved morale, although there is concern 
whether this priority will be sustained. The last three Chiefs of Naval 
Operations have made clear that its nuclear mission is its highest 
priority. As a result, the Navy has been able to sustain a capable 
acquisition community and operational force. The Air Force has been 
slower to change. It is recovering its skill base through a combination 
of leadership and organizational changes, and is closing funding gaps, 
but it will require years of sustained support to recreate the spectrum 
of nuclear skilled military and civilians required. The NNSA 
laboratories have been growing to meet the demands of the Lifetime 
Extension Program schedule, with excellent success in attracting highly 
talented new staff, but they are inexperienced and reliant on a 
dwindling cadre of experienced (and retirement eligible) scientists and 
engineers. Sustainment of the current priority placed on the mission, 
through both words and actions, is the best bet for ensuring retention. 
The DSB does not comment on specific levels of funding. However, we 
note that there no funds for DOE/NNSA for plutonium pit production 
beyond 30 pits/year or for a Stockpile Sustainment Program. For 
delivery systems, we note that all three legs of the Triad (SSBNs, 
ICBMs, and bombers) are at the end of their already extended life and 
will need to be replaced over the next decade and a half. The 
significant resourcing required will be competing against other 
priorities in the Department.
    Mr. Rogers. How do we guard against ``technology surprise'' or 
``strategic surprise'' in the nuclear deterrence realm? Are we putting 
enough effort into cutting-edge R&D in nuclear capabilities to 
understand what is possible, what other nations may achieve? Are we 
putting enough resources into collecting and understanding technical 
intelligence on other nuclear powers and what capabilities they are 
researching? What role does prototyping and basic, fundamental nuclear 
science play here?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. The December DSB report says that ``Despite the `peace 
dividend' at the end of the Cold War, the DSB remains unconvinced that 
downplaying the nation's nuclear deterrent would lead other nations to 
do the same.'' Would you please elaborate on how the DSB believes the 
U.S. has been downplaying its nuclear deterrent? What actions or 
policies would you point towards? Have the steps the U.S. has taken to 
de-emphasize its nuclear deterrent had any effects on the nuclear 
programs of Russia? China? Any other nuclear power or aspiring nuclear 
power?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. Successive 
administrations since the end of the Cold War sought to place more 
reliance on advanced non-nuclear force capabilities for deterrence 
while downsizing the nuclear component and focusing investments in that 
community on life extensions of systems fielded in the 1980s. That 
strategy, however, had the unintended consequence that nuclear became 
even more prominent for other nations because they could not afford to 
meet or overmatch the U.S. with conventional capabilities. Russia began 
undertaking and extensive modernization and expansion program over a 
decade earlier than the U.S., China embarked on a steady march to 
expand both its nuclear and non-nuclear forces, and North Korea became 
fully committed to developing its own systems irrespective of external 
pressures. At the same time, the end-of-life of all U.S. systems was 
known but not addressed until left with no choice, and therefore few 
options except replacement could be supported in the time remaining. 
The relatively recent consensus reached by both Congress and the last 
administration to support the full suite of modernization efforts at 
both DOD and DOE is a welcome reversal, but any faltering in that 
commitment going forward will lead to gaps in the viability of the 
deterrent.
    Mr. Rogers. The DSB's December report makes a pointed summary 
statement, saying: ``In short, `nuclear' still matters, nuclear is in a 
class of its own, and nuclear cannot be wished away.'' What recent 
actions would you describe as ``wishing away'' the nuclear aspects of 
defense? What actions do you think we could take that would again be 
wishing it away? Or to put it another way--what actions could we take 
that would be putting our heads in the sand? Would cancelling key 
nuclear modernization programs fall in that list?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. Our O&I Subcommittee had a hearing focused on the huge 
backlog of deferred maintenance at NNSA's facilities. Has the DSB 
looked at this issue? What are the impacts of all of this very old, 
very decrepit infrastructure? How does it influence NNSA's readiness 
and responsiveness to react to new taskings and changes in programs?
    Dr. John and Dr. Anastasio. In its ``Nuclear Capabilities'' report 
of 2006, the DSB reported that the production complex was not 
configured, managed, or funded to meet minimum immediate stockpile 
sustainment needs. Many of the problems that prompted that observation 
remain, but the DSB has not taken a look at the issue recently. A 
glimpse of the advantages that a modern facility employing advanced 
manufacturing capabilities can provide can be found at the new Kansas 
City plant, where non-nuclear components for the weapons are produced.
    Mr. Rogers. What are the key drivers of the U.S. nuclear 
modernization program? How is it affected by foreign threats and 
capabilities? How is it affected by vulnerabilities or aging in current 
U.S. nuclear forces? Is there margin to further slip or delay the 
schedules for our nuclear modernization programs?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. What could be done by DOD--and more broadly DOE and the 
nation--to ``reestablish the knowledge base in nuclear matters and the 
art of deterrence among both civilian and military leadership,'' which 
the DSB notes ``has largely atrophied''? What role can Congress play in 
this?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The DSB has been 
consistent through most of its work on nuclear matters to point out 
that the most important part of the nation's deterrent posture is the 
professional workforce, be they in the policy, technical, programmatic 
or operational roles. In no other area of national security do these 
several dimensions interact as intimately as they do for nuclear 
matters, such that developing the knowledge and experience to made wise 
decisions and take appropriate actions simply takes time. That said, 
there are some practical things to be done such as re-introducing the 
fundamentals of nuclear weapons and warfighting in the education, 
training, and exercising activities of the DOD; creating and promoting 
promising career paths for military and civilians; and rotating high-
potential professionals through a range of assignments that would 
expose them to the policy, technical, and operational considerations 
associated with nuclear deterrence. In addition, respectful debate 
about the merits of various contributors to deterrence should be 
encouraged. Contrary to the current perception held by many, the U.S. 
deterrence posture of the Cold War was constantly evolving as the 
country tested and implemented ideas, keeping some and discarding 
others, and as non-nuclear capabilities advanced. In the more complex 
21st century multi-polar environment, the U.S. is at the beginning of 
developing new strategies for deterrence and should expect those 
strategies to evolve as we get smarter about the threats it faces.
    Mr. Rogers. Please describe the DSB's concerns on whether DOD's 
conventional forces are adequately prepared to ``fight through'' a 
nuclear environment. What should DOD be doing to ensure nuclear 
survivability requirements are included in key DOD acquisition 
programs? How should DOD examine tactics, redundancy, and recovery 
plans to ensure it can ``fight through''?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. Please talk us through the following recommendation the 
DSB made: ``The DSB strongly recommends that all major acquisitions be 
born with a nuclear survivability requirement derived from projected 
threat scenarios relevant to the range of missions expected for the 
system.'' DOD doesn't already do this? Which major DOD acquisition 
programs are subject to nuclear hardening requirements--or requirements 
to be able to ``fight through''--and which are not?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. [A classified response 
was provided and is retained in committee files.]
    Mr. Rogers. What is the state of knowledge and expertise in DOD and 
the defense industry regarding nuclear weapons effects and 
survivability? What could be done to improve this knowledge level? What 
steps should Congress take here?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. Through its work in the 
area of nuclear weapons effects and survivability over the decade from 
2005-2015, the DSB observed that expertise was initially continuing to 
decline as it had since the end of the Cold War. The area started to 
draw attention, however, because of a number of activities, such as the 
EMP Commission and the follow-on DSB Work through the standing 
committee, the B61-12 program, and leadership at the Defense Threat 
Reduction Agency (DTRA). While those coincident efforts did not result 
in restoration of Cold War levels of investment or expertise, they did 
stem the decline and produced a more stable programmatic situation at 
DTRA and the National Nuclear Security Agency (NNSA) laboratories. That 
stabilization and even modest growth has persisted as a result of the 
triad related modernization programs. In the past three years, there 
have also been investments in applying the computational and above-
ground simulator tools of NNSA's Stockpile Stewardship Program to 
advancing the science of weapons effects. The DSB has observed, 
however, that this area has been a relatively poor sibling to the 
weapons physics community. We recommended a more effective ``national'' 
enterprise in which DTRA and the NNSA laboratories were seamlessly 
partnered. Such a partnership could create a more viable capability to 
better serve the needs of both Departments and the defense industry 
which has largely lost its in-house design, development, and testing 
expertise.
    Mr. Rogers. Please describe the history of the DSB's work on 
nuclear deterrence issues. How long has DSB been working in this topic? 
What are the backgrounds and expertise of the DSB members who 
contribute to its work on nuclear deterrence?
    Dr. John. The DSB has worked on nuclear issues since its inception 
60 years ago. The list below covers work since 2004.
        -  Nuclear in the Context of Broader Themes--Defense 
        Imperatives for a New Administration, 2008
        -  Capability Surprise (2008 Summer Study), 2009
        -  Strategic Surprise (2014 Summer Study), 2015
        -  Deterring, Preventing, and Responding to the Threat or Use 
        of WMD, 2017 (in review)
        -  Nuclear Technologies and Systems--Future Strategic Strike 
        Forces (2003 Summer Study), 2004
        -  Employment of the National Ignition Facility (NIF), 2004
        -  Future Strategic Strike Skills, 2006
        -  Technology and Innovation Enablers for Superiority in 2030 
        (2012 Summer Study), 2013
        -  Assessment of Nuclear Monitoring and Verification 
        Technologies, 2014
        -  Operations (Reports of the Permanent Task Force on Nuclear 
        Weapons Surety) Report on the Unauthorized Movement of Nuclear 
        Weapons, 2008
        -  Nuclear Weapons Inspections for the Strategic Nuclear Force, 
        2008
        -  Independent Assessment of the Air Force Nuclear Enterprise, 
        2011
        -  Air Force Nuclear Enterprise Follow-On Review, 2013
        -  Nuclear Survivability and Weapons Effects Nuclear Weapons 
        Effects Test, Evaluation, and Simulation, 2005
        -  Nuclear Weapons Effects National Enterprise, 2010
        -  Reports of the Standing Task Force on Survivability of DOD 
        Systems and Assets to Electromagnetic Pulse (EMP) and other 
        Nuclear Weapon Effects, #1-5, 2011-2015
        -  Unconventional Nuclear Strike Preventing and Defending 
        Against Clandestine Nuclear Attack, 2004
        -  Reducing Vulnerabilities to Weapons of Mass Desctruction 
        (2005 Summer Study), 2007
        -  Skills and the Health of the Enterprise Nuclear 
        Capabilities, 2006
        -  Nuclear Deterrence Skills, 2008
    Each report lists the members of the task force. While not 
replicating that here, the participants have included retired senior 
civilians and general/flag officers who made their careers in DOD's 
nuclear weapons community, with backgrounds that span the policy, 
technical, acquisition, and operational areas. Positions held include 
former STRATCOM commanders, Air Force Chiefs, Navy submarine force and 
nuclear weapons systems program leaders, Assistant Secretaries of 
Defense from OSD (Policy) and OSD (AT&L), and technical leadership from 
the Defense Threat Reduction Agency and the Intelligence Community. 
Participants were also drawn from senior leadership of DOD's Federally 
Funded Research and Development Centers (FFRDCs) and the Energy 
Department's nuclear weapons laboratories, and form industries involved 
in both the platform and technical services aspects related to nuclear 
weapons. To keep entrenched perspectives in check, most studies also 
include task force members whose expertise is in related fields (e.g., 
cyber ISR, missile defense) but not mainstream nuclear matters.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. The report suggests the potential need to return to 
nuclear testing, noting that: ``Underground nuclear testing provided 
both stockpile confidence and a powerful tool in advancing scientific 
understanding, but nuclear testing has not been permitted . . . In its 
place, the nation supported the Stockpile Stewardship Program that 
significantly improved the fundamental understanding of material aging 
and nuclear explosive physics through above ground simulators, and 
state-of-the-art computational modeling. An open question remains as to 
how long one can have confidence in the weapons through these 
approaches alone.'' (emphasis added).
    While recognizing that the Board did not consider policy 
implications or cost considerations, please explain whether and how the 
report recommends reconsidering the need for nuclear testing?   
[Question #46, for cross-reference.]
    Dr. John and Dr. Anastasio. Nuclear testing was one of several 
tools used to develop the U.S. stockpile and advance scientific 
understanding during the Cold War. With the end of the Cold War the 
nation put in place the Stockpile Stewardship Program that has been 
remarkably successful in providing the technical basis for continued 
sufficient confidence in the current stockpile. As part of the DSB's 
highlighting the need for a hedge to an uncertain future, we have 
raised the question of how long this approach alone will provide the 
needed confidence. The DSB has not made a recommendation of how and/or 
when the need for nuclear testing should be reconsidered, but note that 
there is an existing process of annual assessment by the Commander U.S. 
Strategic Command and each of the national security laboratory 
directors regarding the need to return to nuclear testing.
    Mr. Cooper. Is nuclear deterrence just about U.S. nuclear forces? 
What else contributes to deterrence?   [Question #47, for cross-
reference.]
    Dr. John and Dr. Anastasio. While the Triad represents the most 
visible manifestation of deterrence and is overdue for modernization, 
there are many other factors that contribute to deterrence and also 
require attention. Together with the Triad, these factors present to 
any adversary the credibility that the U.S. is fully capable of 
executing against our strategy under any circumstance; namely that the 
U.S. can impose unacceptable costs and/or negate any perceived benefits 
of an adversary's actions. They include: The operational readiness of 
the force as demonstrated through training and exercises; The ability 
and capacity of the technical enterprise to anticipate and respond to 
changes in the threat; The ability to operate in an adversary generated 
nuclear environment (referred to as nuclear survivability); A robust 
command and control system; Preventing further proliferation--both 
``vertically'' by current nuclear weapons actors, and ``horizontally'' 
by new proliferators--through the tools of diplomacy (treaties and 
agreements), cooperative and unilateral monitoring, and assurance/
extended deterrence to our allies. The lynchpin: the demonstrated 
skills of talented, knowledgeable, committed, and valued people. The 
DSB has addressed each of these areas (with the exception of command 
and control, a topic covered by special commissions and the subject of 
a new DSB study just getting underway) in some depth throughout its 
history, and especially over the past 15 years as we began to see 
worrisome trends in the threat. A relatively recent proposition to add 
to the above list is that integration of U.S. advanced non-nuclear 
capabilities with its nuclear forces--so-called cross-domain, or 
integrated, deterrence--holds promise as a more fulsome approach. Over 
the last three decades the U.S. has developed highly effective non-
nuclear capabilities to hold targets at risk that only nuclear weapons 
could previously. Several of these capabilities--kinetic and non-
kinetic--seem likely to be able to enhance the credibility of both the 
nuclear deterrent and the extended deterrent if effectively employed as 
part of a broader integrated deterrence strategy. Each of the 
capabilities have the potential to affect the confidence the adversary 
can hold in his offensive nuclear capability to achieve a military or 
diplomatic purpose. These non-nuclear capabilities include the 
application of the technologies of autonomy, precision conventional 
strike, and space and cyber operations. Successful integration will 
require a seamless command and control system across nuclear and non-
nuclear warfighting domains.
    Mr. Cooper. The DSB report recommends developing weapons with lower 
yields. What is the need or benefit when we already have non-strategic 
nuclear weapons that have low yields?
    Dr. John and Dr. Anastasio. The DSB did not recommend the 
development of nuclear weapons with lower yields. We did state that the 
U.S. should have a robust hedge against an uncertain future and that 
one consideration for such a hedge could be low yield options for 
existing weapons beside the B61.
    Mr. Cooper. How have advances in technologies made it easier for 
aspiring nuclear weapons states or even terrorists to acquire nuclear 
weapons? What investments should we make to keep ahead of this threat?
    Dr. John and Dr. Anastasio. [A classified response was provided and 
is retained in committee files.]
    Mr. Cooper. What could be done by DOD--and more broadly DOE--to 
``reestablish the knowledge base in nuclear matters and the art of 
deterrence among both civilian and military leadership,'' which the DSB 
notes ``has largely atrophied''? What role can Congress play in 
supporting this effort?
    Dr. John and Dr. Anastasio. The DSB has been consistent through 
most of its work on nuclear matters to point out that the most 
important part of the nation's deterrent posture is the professional 
workforce, be they in the policy, technical, programmatic or 
operational roles. In no other area of national security do these 
several dimensions interact as intimately as they do for nuclear 
matters, such that developing the knowledge and experience to made wise 
decisions and take appropriate actions simply takes time. That said, 
there are some practical things to be done such as re-introducing the 
fundamentals of nuclear weapons and warfighting in the education, 
training, and exercising activities of the DOD; creating and promoting 
promising career paths for military and civilians; and rotating high-
potential professionals through a range of assignments that would 
expose them to the policy, technical, and operational considerations 
associated with nuclear deterrence. In addition, respectful debate 
about the merits of various contributors to deterrence should be 
encouraged. Contrary to the current perception held by many, the U.S. 
deterrence posture of the Cold War was constantly evolving as the 
country tested and implemented ideas, keeping some and discarding 
others, and as non-nuclear capabilities advanced. In the more complex 
21st century multi-polar environment, the U.S. is at the beginning of 
developing new strategies for deterrence and should expect those 
strategies to evolve as we get smarter about the threats it faces.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. The DSB reports that ``nuclear testing has not been 
permitted for 25 years'' and ``an open question remains as to how long 
one can have confidence in the weapons'' by pursuing the Stockpile 
Stewardship Program but no full-scale nuclear testing.
    Does it believe our science-based tools will be enough to certify 
the reliability of the stockpile for the long term or may we need to 
return to nuclear testing at some point?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. As part the DSB's 
highlighting the need for a hedge to an uncertain future we have raised 
the question of how long this approach alone will provide the needed 
confidence. (See also the answer to question 46.)   [Question #46 can 
be found on page 56.]
    Mr. Franks. What could be done by DOD, DOE, and Congress to 
``reestablish the knowledge base in nuclear matters and the art of 
deterrence among both civilian and military leadership,'' which the DSB 
notes ``has largely atrophied''? What are we doing to ensure our 
nuclear scientists and engineers are able to design and build new 
nuclear warheads if they were called upon to do so?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The DSB has been 
consistent through most of its work on nuclear matters to point out 
that the most important part of the nation's deterrent posture is the 
professional workforce, be they in the policy, technical, programmatic 
or operational roles. In no other area of national security do these 
several dimensions interact as intimately as they do for nuclear 
matters, such that developing the knowledge and experience to made wise 
decisions and take appropriate actions simply takes time. That said, 
there are some practical things to be done such as re-introducing the 
fundamentals of nuclear weapons and warfighting in the education, 
training, and exercising activities of the DOD; creating and promoting 
promising career paths for military and civilians; and rotating high-
potential professionals through a range of assignments that would 
expose them to the policy, technical, and operational considerations 
associated with nuclear deterrence. In addition, respectful debate 
about the merits of various contributors to deterrence should be 
encouraged. Contrary to the current perception held by many, the U.S. 
deterrence posture of the Cold War was constantly evolving as the 
country tested and implemented ideas, keeping some and discarding 
others, and as non-nuclear capabilities advanced. In the more complex 
21st century multi-polar environment, the U.S. is at the beginning of 
developing new strategies for deterrence and should expect those 
strategies to evolve as we get smarter about the threats it faces.
    Regarding the second question, to be prepared to design and build 
new warheads, NNSA scientists and engineers must actually do it. 
Respecting the restructions of current legislation, the DSB is a strong 
supporter of exploratory and advanced development activities, which is 
the focus of the Stockpile Responsiveness Program at NNSA, with the 
provision that concepts can be carried through to prototyping and 
flight testing.
    Mr. Franks. The December DSB report says: ``The lead time for 
obtaining a modernized force is long and the U.S. is starting well 
behind Russia and China's efforts.'' We heard this same message 
yesterday at our hearing with General Selva and General Hyten.
    Would you please explain why the U.S. is lagging behind Russia and 
China's modernization efforts and what could be done to shorten this 
timeline for the U.S. to catch up?
    Dr. John, Dr. Anastasio, and Dr. LaPlante. The U.S. is lagging 
because the Russian and Chinese started their modernization programs 20 
years ago. There is little we can do to catch up, and delays in support 
for modernization will only increase the gap. Care should be taken in 
the current modernization efforts to ensure flexibility in the new 
systems (e.g., open software architectures) that would allow their 
rapid adaptation to changes in the threat once they are deployed. In 
the meantime, there must be investment in sustaining the force that is 
currently deployed for as long as possible and for engaging in a more 
comprehensive approach to deterrence as discussed in the answer to 
question #47.   [Question #47 can be found on page 56.]

                                  [all]
</pre></body></html>
